           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   RELIABILITY AND ACCURACY OF THE
   SOCIAL SECURITY ADMINISTRATION’S
       EXHIBIT 300 SUBMISSIONS TO
 THE OFFICE OF MANAGEMENT AND BUDGET

    September 2008   A-14-08-18018




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:      September 30, 2008                                                                 Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Reliability and Accuracy of the Social Security Administration’s Exhibit 300 Submissions
           to the Office of Management and Budget (A-14-08-18018)


           OBJECTIVE

           Our objective was to determine whether the Social Security Administration’s (SSA)
           Exhibit 300 submissions to the Office of Management and Budget (OMB) for its
           Information Technology (IT) projects were based on reliable and accurate data and
           information.

           BACKGROUND

           Federal agencies are required to effectively manage their capital assets to ensure
           scarce public resources are wisely invested. OMB plays a key role in determining the
           amount the Government will spend for IT and how these funds will be allocated. 1 A key
           component of OMB’s management and oversight of the IT budget process is the
           Capital Asset Plan and Business Case, also known as the Exhibit 300. OMB designed
           the Exhibit 300 as the one-stop document for many IT management issues, including
           business cases for investments, IT security reporting, modernization efforts and overall
           investment management. 2 Exhibit 300 is used to help make important IT management
           decisions and choices.




           1
            Government Accountability Office, GAO-06-250, Information Technology, Agencies Need to Improve the
           Accuracy and Reliability of Investment Information, page 1, January 2006.
           2
            OMB Circular No. A-11, Part 7, Planning, Budgeting, Acquisition, and Management of Capital Assets,
           Section 300.6, page 6, July 2007.
Page 2 - The Commissioner


Each year, Federal agencies submit Exhibits 300 to OMB for budget justification and to
satisfy reporting requirements 3 for all major IT investments. 4 The Exhibit’s content
should reflect controls agencies have established to ensure good project management,
as well as show that they have defined cost, schedule, and performance goals. 5 OMB
relies on the accuracy and completeness of the information reported in the Exhibits 300
for budget decisionmaking. 6 Exhibits 300, submitted at the end of Fiscal Year (FY)
2007, were for the FY 2009 budget request. In the FY 2007 Exhibit 300 submission,
FY 2007 was considered the prior year, FY 2008 was the current year and FY 2009 was
the budget year.

At SSA, the Offices of the Chief Information Officer (OCIO) and Systems (OS) manage
and lead the Exhibit 300 preparation and review process. This process integrates the
decisions of SSA’s IT capital planning and budgeting processes. In May of each year,
project management teams from SSA’s major IT projects begin developing SSA’s
Exhibits 300 for September submission to OMB.

We examined SSA's Exhibit 300 process and other related processes and reviewed the
supporting documents of the following SSA FY 2007 Exhibit 300 submissions to OMB.

•         Financial Accounting System (FACTS) project provides for the operation and
          maintenance of SSA’s official accounting system, the Social Security Online
          Accounting and Reporting System.
•         Call Center Network Solution (Call Center) project replaces the current call center
          for SSA’s National 800 Network and provides for capability to handle increasing call
          volumes.
•         Information Technology Operations Assurance (Second Data Center) project
          establishes a second data center to address the single point of failure risk of SSA’s
          current data center, National Computer Center.

For more methodology and background information, see Appendices B and C.




3
    OMB Circular A-11, Part 7, supra, Section 300.1, page 1.
4
  OMB Circular A-11, Part 7, supra, Section 300.4, page 3. “Major investment means a system or
acquisition requiring special management attention because of its importance to the mission or function of
the agency, a component of the agency or another organization; is for financial management and
obligates more than $500,000 annually; has significant program or policy implications; has high executive
visibility; has high development, operating, or maintenance costs; is funded through other than direct
appropriations; or is defined as major by the agency’s capital planning and investment control process.
OMB may work with the agency to declare other investments as major investments.”
5
    GAO-06-250, supra, see the report’s Highlights.
6
    Id.
Page 3 - The Commissioner


RESULTS OF REVIEW
Our review found several areas in the Exhibit 300 process that SSA could improve to
increase the reliability and accuracy of the Agency’s submissions to OMB. Preparation
of the Exhibit 300 is difficult and complex. SSA has leveraged its existing capital
planning and budgeting, financial accounting, and project management processes and
designed a collaborated system for Exhibit 300 reporting. This system involves many
levels of reviews and requires extensive communication and cooperation among
numerous components at different organizational levels. In addition, SSA developed
capital programming policies and procedures that generally meet OMB’s requirements
for project management and Exhibit 300 reporting.

However, we noted several areas that SSA could improve to ensure the Agency’s
Exhibit 300 submissions are based on accurate and reliable data and information. Well
supported and more accurate Exhibits 300 will enable OMB to make better decisions
for SSA’s major IT projects. These areas were as follows.

•     SSA Exhibits 300 did not always reflect best estimates of total project cost for its IT
      projects.
•     Alternatives Analyses were not always performed properly.
•     There were weaknesses in SSA’s security costs allocation process.
•     Risk assessments were not always performed properly.
•     SSA did not fully address some OMB Exhibit 300 questions.

SSA’S EXHIBITS 300 DID NOT ALWAYS REFLECT TOTAL PROJECT COSTS

SSA’s Exhibit 300 process did not ensure the total costs for its major IT projects were
properly estimated and reported in Exhibits 300 to OMB. We found certain cost data
for some of SSA’s major IT projects were not accurately reflected or properly estimated
in the Exhibits 300 to OMB. For example, for one of the three projects we reviewed, we
found $18.8 million in historical costs was not included in SSA’s submission to OMB.
This amount is 14 percent of the total costs of the project currently reported to OMB.

SSA Processes Focus on Short-term Costs Rather Than Long-term Resource
Needs

For each major IT project, agencies are required to provide the total estimated life-cycle
costs 7 (total costs) for the investment by completing the Summary of Spending for
Project Phases table 8 (spending table). This table includes accumulated historical
costs and estimated costs for the project’s current and future years. SSA’s IT

7
 Life-cycle costs of an asset are all direct and indirect costs, including planning, procurement, operating
and decommissioning and disposal costs.
8
    OMB Circular A-11, Part 7, supra, Section 300, page 14.
Page 4 - The Commissioner


budgeting process focuses more on the amount of funds expected to be available in the
near future for the projects. As a result, the total costs reported in SSA’s Exhibit 300
spending tables represent short-term (1-2 years) budget decisions rather than the
long-term resource needs. OCIO IT budget staff stated that the out-year 9 budgets are
generally flat and serve as place holders. We found that the estimated costs in
Exhibits 300 represent the amounts approved by the OCIO. As a result, SSA’s process
did not always ensure the costs reported in the Exhibits 300 represent the total
resources needed to complete the project.

We found that estimated total costs for the Call Center project were based on an
incomplete analysis. When SSA submitted the project budget to OMB, it had
developed estimated total costs for three viable investment alternatives but had not
decided which investment alternative to select. SSA used the highest priced alternative
rather than the best ranked alternative as its basis for total costs estimation for the
project. In addition, cost estimates were based on a 2005 study that noted the costs for
the best ranked alternative were expected to drop sharply. As a result, the project’s
estimated total costs provided to OMB could be significantly different from the actual
resources required to complete the project. SSA staff stated the scope of the project is
still subject to changes, and a budget based on the higher cost alternative would ensure
the project is not under-funded in the future.

We found omissions in the budget amount computation for the Exhibit 300 of one of the
three projects we reviewed. Costs for two planned tasks were not included for a project
because of a manual error. 10 In 2007, SSA implemented a new process to better
account for total project costs. The process is still being refined and improved. SSA
needs to ensure the spending summaries reported in Exhibits 300 represent both
budget decisions and its best estimates for the total costs for the projects.

Weaknesses in the Historical Costs Accumulation

We identified two weaknesses in the area of historical costs. First, in response to our
inquiries about historical costs accumulation, SSA staff identified an issue that they
were not previously aware of with SSA’s Exhibit 300 reporting and data maintenance
system called the Electronic Capital Planning and Investment Control (eCPIC) System.
The system automatically dropped costs for years before 2001. For example, for SSA’s
FACTS, we found $18.8 million in historical costs for planning was dropped and
excluded as project costs. This amount represents 14 percent of total project costs
reported to OMB and half of the planning cost of the project. SSA staff stated that this
was an issue with the software and was shared by other Federal agencies that used the
same software. The software administrators have resolved this issue. SSA will review
its projects to ensure all dropped costs are recaptured in the system. SSA considered
several alternatives before it selected eCPIC. According to SSA, eCPIC is the most

9
 Out years are defined as the years after the current budget year. In September 2007, agencies
submitted Exhibits 300 for the budget request for 2009, or budget year 2009.
10
     The total costs for FY 2007 through 2009 should have been 7, 9, and 14 percent higher, respectively.
Page 5 - The Commissioner


economical solution among the alternatives considered. OMB recommended, but did
not require the use of, eCPIC for the Exhibit 300 submission solution.

Second, OMB requires that Federal agencies report estimated total life-cycle costs in
                                                                        11
the Exhibits 300, including historical costs and future cost estimates. Each January,
SSA revises all its Exhibits 300 to reflect prior year actual spending. This process
ensures the Exhibits 300 accumulate accurate historical costs. However, this process
does not include SSA’s Full-Time Equivalent (FTE) costs. SSA did not reflect the
accurate level of costs spent in the prior years for the number of Government FTEs and
their related costs. As a result, the historical costs for Government labor were not
accurate.

Some of the issues with total project costs may arise because of the nature of SSA’s
Exhibit 300 process. SSA’s IT capital planning covers only a 2-year period. SSA’s
Exhibit 300 process is largely manual and uses data from various automated and
non-automated systems and processes that are not fully integrated. To capture all cost
elements related to an individual Exhibit 300 project, SSA staff manually combines
component-level project data from various systems and data sources. This process is
labor-intensive. See Appendix C for details.

To improve SSA’s Exhibit 300 process, SSA should further integrate its IT capital
planning, budgeting, project management and reporting systems with its Exhibit 300
processes to minimize manual operations and adjustments. SSA also needs to ensure
that OMB’s guidance is followed in an accurate and complete manner.

ALTERNATIVES ANALYSES WERE NOT ALWAYS PERFORMED PROPERLY

In selecting the best investment alternative for an IT project to improve current
processes, OMB generally requires that agencies conduct cost-benefit analyses
(CBA) 12 for three viable alternatives in addition to the current process. 13 OMB further
requires that agencies analyze, identify, and compare total costs and benefits for each
                                                                         14
alternative as well as the costs and benefits for the current operation. The results of
the comparison are to be reported to OMB in the Exhibit 300 for each major IT project.
The goal of the Alternatives Analysis is to promote efficient resource allocation through
well-informed decisionmaking by the Government. 15

11
     OMB Circular A-11, Part 7, supra, Section 300, page 14.
12
  The applicable OMB guidance uses the term benefit-cost analysis. However, throughout the
Government and private industry, a benefit-cost analysis is referred to as a CBA. Therefore, for the
purposes of this report, we refer to such an analysis as a CBA.
13
     OMB Circular A-11, Part 7, supra, Section 300, Exhibit 300 Part II, Section A, page 21.
14
     OMB Capital Programming Guide, Version 2.0, pages 17-18, June 2006.
15
 OMB Circular A-94, Revised, Guidelines and Discount Rates for Benefit-Cost Analysis of Federal
Government, Section 1, page 1.
Page 6 - The Commissioner


The Alternatives Analyses conducted for the Call Center and Second Data Center
projects were not properly performed, and both projects’ related Exhibit 300 sections
were incomplete or not fully supported. Neither of the projects provided total cost and
benefit estimates for their current operating process.

For example, SSA did not estimate the total benefits of the three alternatives for the
Call Center project, as required by OMB. Instead, SSA reported the cost differences
among the three alternatives as the benefit values for the three alternatives. Below is a
summary of the Call Center project’s Alternatives Analysis results.

             Call Center Project Alternatives Analysis Results Summary
 Alternatives Analyzed          Total Estimated Costs     Total Estimated Benefits
                                      (in millions)              (in millions)
 Alternative 1                            399                         0
 Alternative 2                            367                         32
 Alternative 3                            334                         65

OMB recommends that agencies perform comprehensive analyses of different types of
benefits and attempt to quantify the benefits identified. 16 According to SSA, for the Call
Center project, it determined the total estimated benefits by calculating the differences
between the total estimated costs rather than actually assessing the benefits of the
specific alternatives. For example, SSA determined the total estimated benefit for
Alternative 2 of $32 million by calculating the difference between the total estimated
costs of Alternatives 1 and 2 ($399 million minus $367 million). In addition to the issues
with estimating project benefits, the Call Center project’s total cost estimates for the
three alternatives were based on a 2005 study and susceptible to changes.

For the Second Data Center project, an Alternatives Analysis was not conducted in
accordance with OMB guidance, and the estimated total costs and benefits reported in
the Exhibit 300 were not fully supported by the documentation SSA provided. SSA
conducted a cost-effectiveness analysis (CEA) instead of a CBA for the alternatives it
identified for the Second Data Center Project. OMB allows the use of CEA when
expected benefits are the same for all investment alternatives identified. 17 A CEA
compares only the total costs of the competing investment alternatives. An alternative




16
     OMB Circular A-94, supra, Sections 5.a.1 and 2.
17
  OMB Circular A-94, supra, Section 5, indicates that a CBA is recommended as the technique to use in a
formal economic analysis of Government programs or projects. CEA is a less comprehensive technique,
but it can be appropriate when the benefits from competing alternatives are the same or where a policy
decision has been made that the benefits must be provided. Section 5.b. indicates that a CEA analysis is
appropriate whenever it is unnecessary or impractical to consider the dollar value of benefits provided by
the alternative under consideration. This is the case when (1) each alternative has the same annual
benefits expressed in monetary terms or (2) each alternative has the same annual affects, but dollar
values cannot be assigned to their benefits.
Page 7 - The Commissioner


is cost-effective if it has the lowest costs among the competing investment alternatives
that provide the same benefits. 18 On the other hand, a CBA compares net benefits
(benefits minus costs) among competing investment alternatives.

The Second Data Center project is not a case that lends itself to use a CEA. SSA’s
analysis considered a fully functional second data center and a fully configured
hot-site 19 as providing the same benefits. These two scenarios, by definition, do not
provide the same benefits. For example, the Second Data Center option would provide
extra workload capacity throughout the year for routine operations. A hot-site only
provides coverage during a disaster recovery period.

Adequately prepared Alternatives Analyses are crucial for both SSA and OMB to make
sound IT investment decisions. SSA needs to ensure Alternatives Analyses are
performed according to OMB Circular A-94 and the analyses are properly documented
for all major IT investments.

The Agency agreed with and began addressing our suggestions. SSA developed and
conducted new Alternatives Analysis training. The new training materials and detailed
Alternatives Analysis template generally met OMB’s requirement for Alternatives
Analysis.

WEAKNESSES IN SECURITY COSTS ALLOCATION PROCESS

Our review found weaknesses in how security costs were allocated to individual
projects. OMB requires that agencies identify project-specific IT security costs and
integrate these costs into the overall costs of investment. 20 For security management
activities that support multiple applications, agencies should allocate the related costs
to the impacted applications.

SSA has generally integrated project-specific security costs into the overall costs of its
investment projects. SSA also allocates enterprise security costs 21 to individual
projects according to the number of workstations impacted by the individual projects.
However, SSA management determines the basis of the allocation method, the
numbers of impacted workstations by the projects, without proper support. For
example, we found that OCIO determined there were 10,000 workstations (or users)
impacted by 1 project. However, the system the project supported had only about

18
     OMB Circular A-94, supra, Section 5.b.
19
   A hot-site is defined by the analysis as an alternate facility that has all the computer,
telecommunications, and environmental infrastructure required to recover critical business functions or
information after a disaster.
20
   OMB Circular A-130, Revised, Management of Federal Information Resources, Section 8.b(3),
November 2000 and OMB Circular A-11, Part 2, Section 300, page 17, question 1, July 2007.
21
   These costs include costs for authentication, physical security enhancement, security infrastructure
protection, contractor services, and SSA’s in-house IT security personnel costs, totaling $23.6 million for
Budget Year 2009.
Page 8 - The Commissioner


1,500 direct and indirect users according to the project management team. To ensure
SSA accurately allocates security costs, we suggest SSA use the most accurate
information available.

SSA has included system- or application-specific costs in the cost pool for allocation.
We found that the Certification and Accreditation (C&A) costs were not being directly
charged to specific projects but allocated to all projects. OMB requires that agencies
perform C&As at least every 3 years or when significant changes are made for Federal
                       22
information systems. SSA conducted C&As for 13 major applications and systems in
FY 2007. Some of the C&As were directly traceable to SSA’s Exhibit 300 projects,
such as FACTS, SSA Unified Measurement System and Title II Redesign, but these
costs were still included in the allocation pool and distributed to all projects as
enterprise security costs. As a result, the security costs allocated to individual projects
were not as accurate as they should have been. SSA should only allocate costs for
security activities that support multiple applications and systems.

RISK MANAGEMENT

We found that SSA did not complete the risk assessments per OMB criteria. OMB
requires that agencies perform a risk assessment at the initial stage of a project and
                                                                                    23
demonstrate active management of the risks throughout the life of the investment.
Risk assessment must include 19 mandatory risk elements, such as schedule, costs,
technology obsolescence, security, and project resources for IT investments. Agencies
must discuss these risks and present plans to eliminate, mitigate, or manage them, with
milestones and completion dates. 24

SSA has established risk management policies and procedures for its IT projects.
However, the policies and procedures were not consistently followed. We found the
following risk management weaknesses for the projects we reviewed.

•     The FACTS project had a risk management plan that addressed the mandatory risk
      elements. However, the plan had not been updated since it was initially completed
      in FY 2005.
•     The Second Data Center project team provided a repository of technical issues as
      the project’s risk management plan. However, it did not address critical risk
      elements required by OMB.

The Second Data Center project is one of the high-risk projects SSA reports to OMB.
The project’s progress was delayed because the planned occupation of the facility was

22
 OMB Memorandum M-04-25, FY 2004 Reporting Instructions for the Federal Information Security
Management Act, page 10, August 2004.
23
     OMB Circular A-11, Part 7, supra, Section 300, Part III, Section A, page 24, July 2007.
24
  OMB Circular A-11, Part 7, Planning, Budgeting, Acquisition, and Management of Capital Assets,
Section 300, page 25, June 2005.
Page 9 - The Commissioner


delayed by more than 1 year. When the project started, SSA should have had plans to
handle risks related to such delays, as required by OMB for risk management. The risk
management plan should have been documented and updated and used to adjust
project cost estimates accordingly. SSA needs to ensure all projects comply with
OMB’s risk management requirements and its own policy.

ADDRESSING EXHIBIT 300 QUESTIONS

SSA did not always fully address all the Exhibit 300 questions and requirements. OMB
uses the Exhibit 300 questions as a management tool. OMB relies on the accuracy and
reliability of the Exhibits 300 to make budget and management decisions. OMB
requires that information reported in Exhibit 300 be supported by documentation and
                                                   25
supporting documents be available upon request.

For example, certain responses to the questions were unsupported. One of the three
Exhibit 300 projects we reviewed reported wrong percentage breakdowns of funding
requests for hardware, software and services for FY 2009. One project used
performance measures that were not measurable or were difficult to link to the
Agency’s goal. OMB requires that performance measures be both measurable and
linked to Agency goals. 26 We found that SSA’s response and statement of its
                                                                                27
compliance with earned value management standards was not fully supported, and
we identified a number of errors and omissions in the related Exhibit 300 section.

SSA’s Exhibit 300 process includes four phases of review and revision. However, this
process needs to be improved to better prevent errors and ensure all answers are
supported with documentation. This will help to improve the quality and integrity of the
Exhibit 300. OMB has established a scoring method and has linked funding decisions
with the quality of agencies’ Exhibit 300 submissions. SSA needs to implement controls
to ensure its Exhibits 300 are free of errors and supported with complete
documentation.

CONCLUSION AND RECOMMENDATIONS
The Exhibits 300 are required by OMB to determine what funds to provide SSA for its IT
projects. We noted several areas in the process that SSA could improve to increase
the reliability and accuracy of SSA's Exhibit 300 submissions to OMB.


25
     OMB Circular A-11, Part 7, supra, Section 300.8, page 9, July 2007.
26
     OMB Circular A-11, Part 7, supra, page 16.
27
   SSA has not conducted a compliance review or annual surveillance reviews as required by OMB to be
fully compliant with OMB earned value management requirements. See OMB Memorandum M-5-23,
Improving Information Technology (IT) Project Planning and Execution, August 2005, for related guidance.
In addition, SSA has not fully addressed the recommendations from our prior audit, The Social Security
Administration’s Implementation of Earned Value Management Systems, (A-14-06-26085), September
2006.
Page 10 - The Commissioner


SSA has leveraged its existing capital planning and budgeting, financial accounting,
and project management processes and designed a collaborative system for
Exhibit 300 reporting. This system involves many levels of reviews and requires
extensive communication and cooperation among components at different
organizational levels.

Our audit identified weaknesses and errors in different areas of SSA’s Exhibit 300
process that could be strengthened and improved. Specifically, (1) SSA’s Exhibit 300
did not always reflect best estimates of total project costs; (2) its Alternatives Analyses
were not always performed and documented properly; (3) there were weaknesses in its
security cost allocation process; (4) its risk management was not always performed
properly; and (5) it did not always fully address some OMB Exhibit 300 questions.

Based our on review, we recommend that SSA:

1. Use the most accurate data and estimates available to prepare its Exhibits 300.
2. Ensure its summaries of spending for Exhibits 300 represent both budget decisions
   and its best estimates for the total costs for the IT projects.
3. Further integrate and automate its IT capital planning, budgeting, project
   management and reporting systems and processes to minimize manual operations
   and adjustments.
4. Conduct and document Alternatives Analyses according to Federal standards for all
   projects.
5. Allocate costs for security activities that support multiple applications and systems in
   an accurate and complete manner.
6. Comply with OMB’s risk management requirements and its own policy for all
   projects.
7. Implement controls to ensure its Exhibits 300 are free of errors and supported with
   complete documentation.


AGENCY COMMENTS
SSA agreed with all of our recommendations. The Agency also provided technical
comments, which we considered and addressed as appropriate. See Appendix D for
the text of SSA’s comments.




                                             Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Background
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                               Appendix A

Acronyms
C&A                  Certification and Accreditation
Call Center          Call Center Network Solution
CBA                  Cost-Benefit Analysis
CEA                  Cost-Effectiveness Analysis
CIO                  Chief Information Officer
eCPIC                Electronic Capital Planning and Investment Control System
FACTS                Financial Accounting System
FTE                  Full Time Equivalent
FY                   Fiscal Year
IT                   Information Technology
ITAB                 Information Technology Advisory Board
IT Budget            Information Technology Systems Budget
OCIO                 Office of the Chief Information Officer
OIG                  Office of the Inspector General
OMB                  Office of Management and Budget
OS                   Office of Systems
Second Data Center   Information Technology Operations Assurance
Spending Table       Summary of Spending for Project Phases Table
SSA                  Social Security Administration
Total Costs          Life-Cycle Costs
                                                                       Appendix B

Scope and Methodology
The objective of our review was to determine whether the Social Security Administration
(SSA) Exhibit 300 submissions to the Office of Management and Budget (OMB) for its
Information Technology (IT) projects were based on reliable and accurate data and
information. Specifically, we evaluated the reliability and accuracy of SSA’s Exhibit 300
submissions to OMB.

To meet the objective of this audit, we reviewed relevant Federal laws, regulations and
guidance. We reviewed SSA’s IT capital planning and budgeting and Exhibit 300
preparation processes. We reviewed and examined SSA policies, procedures,
practices, internal controls and documentation, and conducted interviews with relevant
SSA personnel as it related to Exhibit 300 submissions.

We reviewed the following Federal laws, regulations, and guidance:

•   OMB Circular A-11, Part 2: Preparation and Submission of Budget Estimates,
    Section 53, Information Technology and E-government, and Part 7, Section 300:
    Planning, Budgeting, Acquisition and Management of Capital Assets, June 2005
    and July 2007;
•   OMB Capital Programming Guide Version 2.0, June 2006;
•   OMB Circular A-94, Revised, Guidelines and Discount Rates for Benefit-Cost
    Analysis of Federal Programs, October 29, 1992;
•   OMB Memorandum M-05-23, Improving Information Technology (IT) Project
    Planning and Execution, August 4, 2005;
•   OMB Memorandum M-04-19, Information Technology (IT) Project Manager (PM)
    Qualification Guidance, July 21, 2004; and
•   Federal Acquisition Regulation 7.105, Contents of written acquisition plans.

We reviewed SSA policies, procedures, and documents, including the following:

•   SSA OMB Exhibit 300 preparation instruction package for FY 2007 submission;
•   SSA Target Information Technology (IT) Capital Planning and Investment Control
    Process (CPIC) Guide;
•   Related IT Budget Justifications and Exhibits 3 and Office of Chief Information
    Officer (OCIO) review summaries related to the three projects selected for review;
•   SSA’s worksheets and data files for Exhibit 300 project cost calculations for Fiscal
    Years 2007 to 2009;


                                            B-1
•   SSA’s allocation worksheets for Agency-Wide Support Services Contract;
•   SSA Information Technology Advisory Board meeting materials and minutes;
•   Alternatives Analysis reports for projects selected for review; and
•   Other supporting documents and data for the Exhibits 300 for the projects selected
    for review.
We contacted or interviewed SSA staff in the following components:

•   OCIO, Office of Information Technology Investment Management;
•   Office of Systems (OS), Budget Staff;
•   OS, Earned Value Management Program Management Office;
•   OS, Office of Telecommunications and Systems Operations;
•   Office of the Chief Strategic Officer, Office of Chief Strategic Management; and
•   Office of Budget, Finance and Management, Office of Financial Policy and
    Operations, Office of Financial and Administrative Systems.

Our audit focused on SSA’s 2007 Exhibit 300 submissions to OMB. SSA had
13 projects that required preparing and reporting an Exhibit 300. OMB requires the
completion of different parts of Exhibit 300 for projects in different life-cycle stages. To
ensure our audit properly covered different areas of OMB Exhibit 300, we examined a
sample of three major IT projects that SSA submitted Exhibits 300 to OMB in
September 2007. Each of the projects selected was at a different life-cycle stage. The
three projects were

•   Financial Accounting System (FACTS);
•   Call Center Network Solution (Call Center); and
•   Information Technology Operations Assurance (Second Data Center).

Among the 13 projects, SSA had only 1 new project, the Call Center, and 1 operating
project, FACTS. There was 1 discontinued project and 10 mixed life-cycle projects.
We selected the Second Data Center project among the 10 projects by considering the
risks and costs involved of each individual project. For each of the three projects, we
reviewed and examined the related Exhibits 300 dated September 10, 2007 and the
supporting documents and data.




                                            B-2
Our audit scope was limited to the determination of whether accurate and reliable data
were used and whether SSA’s responses to Exhibit 300 questions were supported with
proper documentation. We did not examine the underlying processes that generated
the data or the documentation. For example, we did not examine SSA's Earned Value
Management System and process or cost-benefit analysis process.

We conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives. We
conducted our field work at SSA Headquarters in Baltimore, Maryland, from
October 2007 through March 2008.




                                          B-3
                                                                                Appendix C

Background
OFFICE OF MANAGEMENT AND BUDGET EXHIBIT 300

Federal agencies are required to effectively manage their capital assets to ensure
                                             1
scarce public resources are wisely invested. The Office of Management and Budget
(OMB) plays a central role in determining the amount the Government plans to spend
for information technology (IT) and how these funds are allocated. A key component of
OMB’s management and oversight of the IT budget process is the Capital Asset Plan
and Business Case, also known as the Exhibit 300. OMB designed the Exhibit 300 as
the one-stop document for many IT management issues, such as business cases for
investments, IT security reporting, Clinger-Cohen Act implementation, E-Gov Act
                                                                                   2
Implementation, agencies’ modernization efforts and overall investment management.

Each year, Federal agencies submit Exhibits 300 to OMB for budget justification and to
satisfy reporting requirements for all major IT investments. The Exhibit’s content should
reflect controls that agencies have established to ensure good project management, as
well as showing they have defined cost, schedule, and performance goals. OMB relies
on the accuracy and completeness of the information reported in the Exhibits 300.

Exhibits 300 submitted at the end of Fiscal Year (FY) 2007 were for a FY 2009 budget
request. For FY 2007 submitted Exhibits 300, FY 2007 was the prior year, FY 2008
was the current year and FY 2009 was the budget year.

SOCIAL SECURITY ADMINISTRATION PROCESSES RELATED TO EXHIBIT 300
PREPARATION

The Social Security Administration (SSA) leveraged its existing capital planning and
budgeting, financial accounting, and project management processes and designed a
collaborated system for Exhibit 300 reporting. This system involves many levels of
review and requires extensive communication and cooperation among components at
different organizational levels.

SSA’s Exhibit 300 preparation and review process integrates the decisions and results
of its IT capital planning and budgeting processes. SSA has separate processes for
planning IT staff resources and other IT costs such as hardware, software and services



1
 OMB Circular A-11, Part 7, Planning, Budgeting, Acquisition, and Management of Capital Assets,
Section 300.3, page 2, July 2007.
2
    OMB Circular A-11, Part 7, supra., Section 300.6, page 6.


                                                     C-1
acquired outside the Agency. Many supporting documents for Exhibits 300 are
generated during these processes. SSA uses data from various systems and sources
in the Exhibit 300 preparation process.

The Information Technology Advisory Board Process

The planning process for IT staff resources is governed by SSA’s Information
Technology Advisory Board (ITAB). The Agency’s ITAB is chaired by the Chief
Information Officer (CIO), and its membership is comprised of the Deputy
Commissioner for SSA, all Deputy Commissioners for the business components, as
well as other Agency executives.

IT proposals by SSA components are first prioritized according to their importance in
achieving SSA’s goals. The Office of Systems (OS) then consolidates these prioritized
IT projects with IT staff resource estimates to propose to ITAB an Agency IT Systems
Plan covering 2 FYs. The CIO-chaired ITAB reviews these projects and reaches
agreement on the allocation of IT staff and contractor resources on a component
project level. During the July 2007 ITAB meeting, SSA’s FYs 2007 and 2008
allocations of OS staff and contractor work years were approved and allocated to
individual projects.

Information Technology Systems Budgeting Process

The Information Technology Systems budget (IT budget) includes hardware, software,
and services. OS issues an IT budget call to all SSA components at the beginning of
each FY. Components prepare IT Budget Justifications with detailed budget estimates
for the next 6 years and submit them to OS for review. OS in turn submits all IT budget
requests with its recommendation to the Office of the CIO (OCIO) for funding approval.
OCIO staff reviews the IT budget requests and provides funding recommendations to
the CIO for his final IT budget recommendations to SSA’s Commissioner.

SSA’s Exhibit 300 Preparation Process

SSA’s OCIO and OS manage and lead its Exhibit 300 preparation and review process.
SSA’s Exhibit 300 preparation and review process integrates the decisions of its IT
capital planning and budgeting processes.

OCIO and OS work together to provide assistance, guidance and training to project
management teams that are directly responsible for Exhibit 300 preparation. Each
May, project management teams from SSA’s major IT projects begin developing SSA’s
Exhibits 300 for the September submission to OMB. In the beginning of the Exhibit 300
process, OCIO and OS send out detailed preparation instructions and guidance;
provide expertise support; and provide OMB guidance updates and training to project
teams. In addition, OCIO and OS conduct four runs of review and discussion sessions
for each of the Exhibit 300 projects before OMB submission.



                                          C-2
Systems and Data Sources for Exhibit 300 Preparation Process

SSA’s Exhibit 300 process uses data and inputs from a variety of systems and sources.
These include the financial accounting system, capital planning and budgeting systems,
project management systems and manually maintained worksheets and data records.
For example, to provide data to the Summary of Spending for Project Phases table of
Exhibit 300 (spending table), OCIO budget staff use and refer to the following data from
difference sources, including

• actual expenditure data from Social Security Online Accounting and Reporting
  System, SSA’s official accounting system;
• actual OS labor hours from Resources Accounting System;
• planned work years for approved OS work years and contractor work years from
  Systems Planning and Reporting System;
• manually maintained records of approved budgets for Information Technology
  System budgets;
• manually maintained allocation worksheets for security costs and some contractor
  services;
• non-Systems labor work years from separately provided data files;
• budget information from Automated Procurement Requisition System;
• historical data from Electronic Capital Planning and Investment Control; an
  application used for OMB Exhibit 300 preparation and records keeping; and
• Earned Value Management reports.

OCIO IT budget staff conducts intensive manual inputs, matching and adjustments to
place the right amounts to the right projects and to the right year. This information is
manually maintained and updated in an Excel file that calculates the numbers for the
Exhibit 300 spending table of a project.




                                           C-3
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      September 11, 2008                                                    Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster /s/
           Executive Counselor to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, “Reliability and Accuracy of the Social
           Security Administration’s Exhibit 300 Submissions to the Office of Management and Budget”
           (A-14-08-18018)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Attached is our response to the
           recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                         D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “RELIABILITY AND ACCURACY OF THE SOCIAL SECURITY
ADMINISTRATION’S EXHIBIT 300 SUBMISSIONS TO THE OFFICE OF
MANAGEMENT AND BUDGET” (A-14-08-18018)

Thank you for the opportunity to review and provide comments on this draft report.

Recommendation 1

Use the most accurate data and estimates available to prepare Exhibits 300.
Comment

We agree in principle. Clearly Exhibits 300 should contain the most accurate data and estimates
available at the time they are prepared. In practice, the workyear and information technology (IT)
systems data we use are based on the Information Technology Advisory Board (ITAB) decisions
made in late July or early August. We then make adjustments as a result of management or
Office of Management and Budget (OMB) decisions through January updates to OMB. The
examples OIG cites reflect software and clerical errors that we corrected upon discovery. We’ve
added reviews to help ensure we discover and correct these types of errors in a timely manner.
The audit report also cites an instance where estimates were based on the most expensive
alternative rather than the one selected. However, we believe this was a valid risk-mitigating
business decision.

Recommendation 2

Ensure summaries of spending for Exhibits 300 represent both budget decisions and best
estimates for the total costs for IT projects.
Comment

We agree in principle. The purpose of the Exhibit 300 is to justify project funding through the
President’s budget year. OMB guidance (Circular A-11, Section 330.8) states, “The Exhibit 300
is one component of your agency’s total performance budget justification… OMB uses the
Exhibit 300 to make both quantitative decisions about budgetary resources consistent with the
Administration’s program priorities and qualitative assessments about whether the agency’s
programming processes are consistent with OMB policy and guidance.” OMB specifically
considers resource estimates beyond the budget year request to be for planning purposes only.
OMB makes it clear that the emphasis of the Exhibit 300 is on the budget planning timeframe,
though our practice was always to use the best estimates available for years beyond the budget
year. However, it is the prerogative of ITAB to define the scope of major investments through its
decisions. It would be inappropriate for any other agency to define initiatives beyond the
standing ITAB decisions. In cases where we establish scope (e.g. major contract-driven initiative
such as the Telephone Systems Replacement Project), outyear spending patterns are well defined




                                               D-2
and reflected in the Exhibit 300, but given the volatility of our project environment (new
legislation, new directives, competing priorities, etc.) it is difficult to accurately predict these
costs.

Recommendation 3

Further integrate and automate IT capital planning, budgeting, project management and reporting
systems and processes to minimize manual operations and adjustments.

Comment

We agree. We have an ongoing effort to refine and enhance our IT capital planning, budgeting,
project management, and reporting processes. We expect it to continue. We will continue to
look for ways to improve in this area. We do not necessarily agree that automation is the answer.
While we have various automation initiatives underway, we believe it is more a process
integration issue than an automation issue.

Recommendation 4

Conduct and document the Alternatives Analysis according to Federal standards for all projects.

Comment

We agree. We should improve the way we conduct Alternatives Analyses. Earlier this year, we
contracted with Booz-Allen-Hamilton (BAH) to conduct Alternatives Analysis training for all
OMB 300 project managers. All project managers now use a template provided by BAH as a
guide for developing and documenting their Alternatives Analysis. Currently BAH either
prepares or reviews all Alternatives Analyses.

Recommendation 5

Allocate costs for security activities that support multiple applications and systems in an accurate
and complete manner.

Comment

We agree. We believe we account for security costs accurately and agree with the
recommendation regarding the distribution of certification and accreditation costs. We attribute
Project-specific security costs to the projects to which they apply. We also distribute Enterprise-
level security costs by a formula that uses the estimated number of workstations affected by each
major project. We frequently revise workstation estimates as better information becomes
available.




                                                  D-3
Recommendation 6

Comply with OMB’s risk management requirements and our policy for all projects.

Comment

We agree in principle. We monitor each Exhibit 300 for compliance and require risk
management plans. The audit report cites two projects that lacked risk management plans. The
Information Technology Operations Assurance (Second Data Center) had a risk management
plan, but it was lacking some critical risk factors. In January 2008, we corrected the projects
prior to the resubmission of the Exhibit 300 to OMB. The other project, Financial Accounting
System (FACTS), had a risk management plan. Our review of the plan was done timely. The
fact that no changes were necessary (it is a steady-state project) may not have been clearly
communicated.

Recommendation 7

Implement controls to ensure Exhibits 300 are free of errors and supported with complete
documentation.

Comment

We agree in principle. As your report recognizes that we already have controls in place, we infer
that your recommendation refers to improving our existing controls. At the conclusion of each
annual Exhibit 300 development process, we conduct lessons-learned sessions and implement the
best ideas from these sessions. For example, earlier this year we began a SharePoint site for
collecting all artifacts required to support the Exhibit 300s. We also agree with the audit finding
regarding the lack of compliance reviews or annual surveillance reviews. Lack of funding
prevents us from carrying out this OMB requirement.




[In addition to the information listed above, SSA also provided technical comments
which have been considered and addressed where appropriate, in this report.]




                                               D-4
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kitt Winter, Director, Information Technology Audit Division, (410) 965-9702

   Phil Rogofsky, Audit Manager, Information Technology Division, (410) 965-9719

Acknowledgments

In addition to those named above:

   Grace Chi, Auditor-in-Charge

   Tina Nevels, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-14-08-18018.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
